BECKER GALLAGHER
Briefs

and

Supreme Court ofthe United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief for
Amici Curiae AARP, AARP Foundation, Justice in
Aging, National Organization of Social Security
Claimants' Representatives in Support of Respondent
in 20-303, United States of America v. Jose Luis
Vaello-Madero, was sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day Service and e-mail to the following parties listed
below, this 3rd day of September, 2021:
Brian H. Fletcher
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioner
Hermann Ferre
Curtis, Mallet-Prevost, Colt and Mosle LLP
101 Park Avenue
New York, NY 10178
(212) 696-8871
hferre@curtis.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

I www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E

Washington, DC 20005

Barbara Jones
Counsel of Record
AARP Foundation
601 E Street, NW
Washington, DC 20049
(202) 434-6091
bjones@aarp.org

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 3, 2021.

nnaJ. Wolf
Becker Gallagher Legal Publishirl
c.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ t?5 ~

dvtv

tJ .

Notary Public
[seal]

-5

oil~(

tJ i~~
I

'-J

